Provided to South Bay Com and Rehab, facility
an ..It-1.2s: 2&Z&
for mailing.
Office of The Honorable Clerk
United States Supreme Court
One First Street N.E. Washington DC 20543
JESUS N. RODRIGUEZ M 61525#
South Bay Corr. Facility
P.O. Box 7171 South Bay, Florida 33493
Dear Clerk,
Greetings.
Please find enclosed for filing the following, in order (non stapled)
Petition for Writ of Certiorari
Proof Of Service
Appendix
Motion to Proceed In Forma Pauperis
Thank you very much for your time and effort in this cause.

Certificate
I hereby certify that I provided this envelope with the above contents to
SBCRF for mailing in postage prepaid envelope addressed to Office of The
Honorable Clerk United States Supreme Court One First Street N.E. Washington
DC 20543 and Florida Attorney General Ashley Moody, Attorney General
Department of Legal Affairs_Office of the Attorney General_The Capitol PL-01
Tallahassee, Florida, on this

day of November, 2020.

7

RECEIVED
NOV 2 4 2020
SUplREMF|rnnMPT~£fy

